                                                                       SEP 1 7 2013



UNCLASSIFIED

The Honorable Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation
3501 N. Fairfax Dr., Room 9070
Arlington, VA 22226

Dear Mr. Rymer:

Please find enclosed the final System Review Report for the audit organization of the Federal
Deposit Insurance Corporation, Office of Inspector General. The review was conducted in
accordance with Government Auditing Standards and Council of the Inspectors General on
Integrity and Efficiency guidelines. Your response to the draft report has been incorporated into
the report in its entirety as Enclosure 2.

We thank you and your staff for your assistance and cooperation during the conduct of the
review.

                                                   Sincerely,

                                                          /Signed/
                                                   Harold W. Geisel
                                                   Acting Inspector General



Enclosures: As stated.




                                          UNCLASSIFIED
                                          UNCLASSIFIED

was based on selected tests; therefore, it would not necessarily detect all weaknesses in the
system of quality control or all instances of noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality control. Therefore,
noncompliance with the system of quality control may occur and not be detected. Projection of
any evaluation of a system of quality control to future periods is subject to the risk that the
system of quality control may become inadequate because of changes in conditions or because
the degree of compliance with the policies or procedures may deteriorate. Enclosure 1 to this
report identifies the offices of the FDIC/OIG that we visited and the engagements that we
reviewed.

In our opinion, the system of quality control for the audit organization of the FDIC/OIG in effect
during the period April 1, 2011 , through March 31, 2013, has been suitably designed and
complied with to provide the FDIC/OIG with reasonable assurance of performing and reporting
in conformity with applicable professional standards in all material respects. Federal audit
organizations can receive a rating of pass, pass with deficiencies, or fail. The FDIC/OIG has
received a peer review rating of pass. As is customary, we have issued a letter dated
September 17, 2013, that sets forth findings that were not considered to be of sufficient
significance to affect our opinion expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with GAS, we applied
certain limited procedures in accordance with guidance established by the CIGIE related to the
FDIC/OJG's monitoring of engagements performed by Independent Public Accountants (IPA)
under contract where the IPA served as the principal auditor. It should be noted that monitoring
of engagements performed by IPAs is not an audit and therefore is not subject to the
requirements of GAS. The purpose of our limited procedures was to determine whether the
FDIC/OIG had controls to ensure IPAs performed contracted work in accordance with
professional standards. However, our objective was not to express an opinion, and accordingly,
we do not express an opinion on the FDIC/OIG's monitoring of work performed by IPAs. We
made certain comments related to FDIC/OIG's monitoring of engagements performed by IPAs
that are included in the above referenced letter dated September 17, 2013.

The review team appreciates the courtesy and cooperation provided by your staff during this
review.

                                              Sincerely,

                                                /Signed/
                                              Harold W. Geisel
                                              Acting Inspector General

Enclosures




                                          UNCLASSIFIED0
                                                                                                   2
                                       UNCLASSIFIED



                                                                                     Enclosure 1
                                  Scope and Methodology
We tested compliance with the system of quality control for the audit organization of the Federal
Deposit Insurance Corporation, Office of Inspector General (FDIC/OIG), to the extent we
considered appropriate. These tests included a review of six of 34 audit reports issued during the
period April 1, 2011, through March 31, 2013. The six audit reports we reviewed are listed in
Table 1. We also reviewed an FDIC/OIG internal quality control review, Quality Control
Review of GAGAS Assignments – 2012 (QCR-13-002, May 8, 2013).

In addition, we reviewed the FDIC/OIG’s monitoring of engagements performed by IPAs where
the IPA served as the principal auditor during the period April 1, 2012, through March 31, 2013.
We selected two audit reports from the population of 34 audit reports noted above. These reports
are listed in Table 2.

We did not review FDIC/OIG’s audit of 2012 financial statements because the Government
Accountability Office (GAO) performed the annual financial statement audits.

We conducted our review at FDIC/OIG headquarters in Arlington, VA, and also interviewed
FDIC/OIG personnel located in Dallas, TX.

Table 1. Reviewed Engagements Performed by FDIC/OIG

Report Number     Report Date        Report Title
AUD-12-001        10/25/2011         The FDIC’s Shared-Loss Agreement with Banco Popular de
                                     Puerto Rico, San Juan, Puerto Rico
EVAL-12-003       03/23/2012         The National Owned Real Estate Management and
                                     Marketing Services Contract with CB Richard Ellis, Inc.
AUD-12-011        08/31/2012         The FDIC’s Examination Process for Small Community
                                     Banks
AUD-13-001        10/05/2012         DRR’s Controls for Managing, Marketing, and Disposing
                                     of Owned Real Estate Assets
AUD-13-003        11/05/2012         Independent Evaluation of the FDIC’s Information Security
                                     Program – 2012
AUD-13-004        02/04/2013         The FDIC’s Data Submissions through the Governmentwide
                                     Financial Report System as of September 30, 2012




                                       UNCLASSIFIED
                                                                                                 3
                                 UNCLASSIFIED


Table 2. Reviewed Monitoring Files of FDIC/OIG for Contracted Engagements

Report Number Report Date       Report Title
AUD-12-009      04/05/2012      Corus Construction Venture, LLC Structured Asset Sale

AUD-12-014      09/13/2012      Material Loss Review of Tennessee Commerce Bank,
                                Franklin, Tennessee




                                 UNCLASSIFIED
                                                                                        4
                                               UNCLASSIFIED

                                                                                              Enclosure 2




Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226-3500                                          Office of Inspector General



 September 9, 2013
 The Honorable Harold W. Geisel
 Deputy Inspector General
 U.S. Department of State and the Broadcasting Board of Governors
 1700 N. Moore Street
 Arlington, VA 22209

 Dear Mr. Geisel:

 Thank you for the opportunity to comment on the draft System Review Report and Letter of
 Comment prepared by your office concerning the Office of Audits' system of quality control. We
 value the peer review process and view it as an important facet of an audit organization's quality
 control efforts. We are pleased that your independent review of the Office of Audits' operations
 resulted in a pass opinion and concluded that the system of quality control in effect during the
 period April 1, 2011 through March 31, 2013 was suitably designed and complied with to provide
 reasonable assurance of performing and reporting in conformity with applicable professional
 standards in all material respects.

 The Letter of Comment contains recommendations that, while not affecting the overall opinion
 expressed, are designed to strengthen the Office of Audits' system of quality control. We
 generally concur with the recommendations and are taking corrective actions to address them.
 Those actions and proposed completion dates are described in detail in the enclosure.

 If you have any questions, please call me at (703) 562-2166 or Stephen M. Beard, Deputy
 Inspector General for Audits and Evaluations at (703) 562-6352.

 Sincerely

   /Signed/
 Jon T. Rymer
 Inspector General

 Enclosure

 cc:     Norman P. Brown, Acting Assistant Inspector General for Audits, DOS
         Stephen M. Beard, Deputy Inspector General for Audits and Evaluations, FDIC
         Mark F. Mulholland, Assistant Inspector General for Audits, FDIC
         E. Marshall Gentry, Assistant Inspector General for Evaluations, FDIC




                                               UNCLASSIFIED
                                                                                                             5
UNCLASSIFIED




UNCLASSIFIED
               6
UNCLASSIFIED




UNCLASSIFIED
               7
UNCLASSIFIED




UNCLASSIFIED
               8
                                        UNCLASSIFIED

           Deputy Inspector General for Audits and Evaluations, decided not to include $3.3
           million in projected unsupported claims in the final report. However, the auditors did
           not prepare a work paper supporting the change.

       •   In the second audit report, we noted that information supporting the audit report was
           not always documented in the official system of record, TeamMate. Specifically, we
           were unable to find support in the work papers for the following statement made in
           the report: “None of the Accounting Officers we interviewed who were responsible
           for 25 sampled active owned real estate assets had been informed by DRR [Division
           of Resolutions and Receiverships] management that the contractor billing reports
           were available on the DRR Accounting SharePoint Site.” This occurred because the
           auditor did not document the audit evidence in TeamMate and did not indicate that
           the supporting work papers were maintained outside of TeamMate, as required by the
           PPM. The auditor who created the work paper was able to locate and provide the
           supporting work paper; however, had the auditor not been available, the work paper
           may not have been located.

Completing required work paper elements is important because they explain the results of testing
to the extent that an experienced auditor understands the nature, timing, and results of audit
procedures performed. Moreover, failure to clearly document audit evidence in the official
system of record could create confusion and misunderstandings during report preparation and the
quality assurance process and undermine the integrity of audit reports.

FDIC/OIG officials informed us that they have initiated an effort to update their TeamMate
standard performance audit template. FDIC/OIG officials plan to have their Planning and
Operations Group assist teams with the development of audit programs to ensure steps in
TeamMate are logically organized to better capture results, to include all necessary supporting
work papers, and to clearly indicate that teams have obtained sufficient and appropriate audit
evidence.

       Recommendation 1. The Federal Deposit Insurance Corporation Office of
       Inspector General’s Deputy Inspector General for Audits and Evaluations should
       take steps, such as staff training and/or clarification of policies and procedures, to
       emphasize the importance that audit documentation is sufficiently detailed to
       reflect the audit procedures performed, the audit evidence obtained, and the
       conclusions reached.

       Management Response: FDIC/OIG concurred with the recommendation, stating
       that it would take steps to update the policies and procedures manual to clarify
       “expectations for documenting the work performed and evidence obtained,” to
       “update [the] existing TeamMate template to reflect changes in [the] policies and
       procedures,” and to “train staff on the updated policies and procures manual and
       TeamMate template” by February 28, 2014.




                                        UNCLASSIFIED

                                                                                                  2
                                        UNCLASSIFIED

       OIG Reply: OIG accepted the FDIC/OIG proposed action as meeting the intent
       of the recommendation.

Reporting Standards

Finding 2. Objective, Scope, and Methodology

The FDIC/OIG PPM incorporates reporting requirements noted in GAS 2011, paragraphs 7.12
and 7.13. In two of the six performance audit reports reviewed, we noted that auditors
performed judgmental sampling as part of their audit testing. However, the audit reports did not
contain certain elements of the sampling methodology or include all geographic locations in
compliance with reporting standards. Specifically, the audit reports did not state the relationship
between the population and the sample size or satisfactorily describe the sample design and why
the design was chosen. One of the Auditors-in-Charge stated that these are not part of
FDIC/OIG’s normal procedures when utilizing judgmental sampling techniques.

In addition, in one performance audit report, we noted inconsistencies between fieldwork testing
documented in the work papers and what was presented in the audit report. For instance, the
report stated that the audit team performed audit work at FDIC’s offices in Arlington, VA, and in
Dallas, TX; however, audit work papers showed that work was also performed in Georgia and
Arizona. The Auditor-in-Charge stated that Georgia and Arizona were not included in the audit
report because the amount of work was not considered material. At the time of the audit, the
team thought that it may be misleading to indicate that significant work was performed at these
sites. However, report users may not be able to assess and/or fully understand the scope of audit
procedures unless they are presented with all appropriate information, such as sample size to the
population and rationale for the sampling technique.

FDIC/OIG officials informed us that this was an oversight and the audit report should have
included all geographic locations and described the extent of work performed. FDIC/OIG
officials also informed us that they could have more fully described the relationship between the
population and the items tested in the two reports and are now requiring teams prepare the
objective, scope, and methodology as part of their message design process. The issuance of
updated procedures will provide for a review of the objective, scope, and methodology by the
Planning and Operations Group to ensure that reporting standards are met.

       Recommendation 2. The Federal Deposit Insurance Corporation Office of
       Inspector General’s Deputy Inspector General for Audits and Evaluations should
       take steps to strengthen review of the audit report objective, scope, and
       methodology sections to ensure that all required reporting elements are
       appropriately described and that the report is in compliance with the Policies and
       Procedures Manual and Government Auditing Standards requirements.

       Management Response: FDIC/OIG concurred with the recommendation, stating
       that it would update policies and procedures to strengthen the review process and
       provide training on the updated policies and procedures by February 28, 2014.

                                        UNCLASSIFIED

                                                                                                  3
                                       UNCLASSIFIED

       FDIC/OIG further stated that teams working on ongoing assignments are now
       required to “provide a draft of the Objective, Scope, and Methodology section of
       the report . . . to focus attention on how that section will be presented in the
       report.”

       OIG Reply: OIG accepted the FDIC/OIG proposed action as meeting the intent
       of the recommendation.

Quality Control Policies and Procedures

Finding 3. Independence

The FDIC/OIG’s “Updated Guidelines for Implementing Independence Requirements in the
Government Auditing Standards 2011 Revision,” dated September 2012, states that before
beginning an assignment, each staff member contributing to an assignment including the
Inspector General, Principal Deputy Inspector General, and independent referencer will complete
a Representation of Independence form to help identify threats to independence and document
compliance with GAS in TeamMate.

In four of the six performance audits reviewed, we identified 10 instances of noncompliance
from the population of 101 auditors (9.9 percent) who were assigned to these engagements. In
seven of the 10 instances, the Representation of Independence form was not prepared and
documented in TeamMate. For the remaining three instances, the form was prepared but not
documented in TeamMate. This occurred because the FDIC/OIG’s quality control procedures
related to independence were not fully implemented to ensure that all assigned auditors,
independent referencers, and executive staff, such as the Inspector General and Principal Deputy
Inspector General, had prepared and documented the independence statements in TeamMate
prior to completion of the audit. In addition, the audit teams had difficulty obtaining
independence statements from the executive staff.

If staff independence is not formally documented, there is a risk that the appearance of
independence could be questioned thereby impacting the integrity of the audit. This was also an
issue identified and documented in the letter of comments of the previous peer review conducted
by the Railroad Retirement Board OIG in 2010. The recommendation was for the FDIC/OIG to
re-emphasize existing requirements related to independence representation statements to its
staff.

FDIC/OIG officials informed us that they have initiated an effort to update their TeamMate
standard performance audit template. This will include specific steps for obtaining independence
statements from OIG executives, staff, and the referencer and for assessing the independence of
specialists. The steps must be completed and reviewed before the assignment is closed. They
stated that these added steps will help ensure that independence statements are obtained and
appropriately documented.




                                       UNCLASSIFIED

                                                                                               4
                                       UNCLASSIFIED

       Recommendation 3. The Federal Deposit Insurance Corporation Office of
       Inspector General’s Deputy Inspector General for Audits and Evaluations should
       review the Policies and Procedures Manual (PPM) to determine whether the
       Inspector General and Principal Deputy Inspector General should be required to
       prepare the Representation of Independence for each audit assignment and revise
       the PPM, as necessary.

       Management Response: FDIC/OIG concurred with the recommendation, stating
       that it had reviewed the current procedures and had determined that the Inspector
       General and Principal Deputy Inspector General “should continue to prepare the
       Representation of Independence for each audit assignment. However, FDIC/OIG
       further stated that it would “update [the] procedures to provide flexibility in how
       [Representations of Independence] are obtained” and provide related training by
       February 28, 2014.

       OIG Reply: OIG accepted the FDIC/OIG proposed action as meeting the intent
       of the recommendation.

       Recommendation 4. The Federal Deposit Insurance Corporation Office of
       Inspector General’s Deputy Inspector General for Audits and Evaluations should
       add a step in the TeamMate library that requires the audit manager or auditor-in-
       charge to certify that all required Representation of Independence forms have
       been completed and documented in TeamMate before the assignment is closed.

       Management Response: FDIC/OIG concurred with the recommendation, stating
       that it would update the “existing TeamMate template to include steps for
       obtaining and documenting Representations of Independence from all staff
       contributing to the assignment” and that it would provide related training for staff
       by February 28, 2014. FDIC/OIG further stated that audit managers would “be
       responsible for ensuring that these steps are completed before the draft report is
       issued.”

       OIG Reply: OIG accepted the FDIC/OIG proposed action as meeting the intent
       of the recommendation.

Finding 4. Referencing Process

The FDIC/OIG PPM requires draft reports to be indexed and final reports to be referenced prior
to issuance. In three of the six performance audits reviewed, we noted that requirements related
to indexing and referencing reports were not always followed because auditors did not index and
reference the executive summary or because they added or changed information, such as dates
and dollar amounts, in the final report that was not reflected in the draft report or the work
papers.




                                       UNCLASSIFIED

                                                                                               5
                                          UNCLASSIFIED

Regarding executive summaries, we noted that the FDIC/OIG’s annual summary of internal
quality assurance reviews 1 included a recommendation to reiterate the requirements for indexing
and referencing the executive summary of the report to the Office of Audits and Evaluations
staff. This recommendation was accepted by FDIC/OIG management and was implemented as
of February 2012. However, the audit managers stated that the executive summary was not
indexed and referenced because the information was taken directly from the report content that
had previously been indexed and referenced, so it was unnecessary to repeat this step again.

As noted in Finding 1. Audit Evidence Documentation, a change was made to the final report
after the draft report was referenced. The referenced draft audit report included “unsupported
claims totaling $24.1 million.” The final audit report included “questioned claims totaling $20.8
million.” The Auditor-in-Charge stated that the Assistant Inspector General for Evaluations, in
consultation with the Deputy Inspector General for Audits and Evaluations, decided not to
include $3.3 million in projected unsupported claims in the final report and thus the total amount
of unsupported claims changed between the draft and final report. We believe that this could
have been avoided if changes included in the final report were indexed and referenced prior to
the issuance.

We also noted that another report contained a numerical discrepancy that should have been
detected during the referencing process. One paragraph in the report objective, scope, and
methodology section stated 10 properties were sampled for physical inspection and two
paragraphs later it stated that 12 properties were sampled for physical inspection. Both numbers
were indexed to a work paper and were verified by the independent referencer. The Auditor-in-
Charge stated that the correct number of properties inspected was 10. This occurred because the
sentence with the discrepancy was added at the “last minute” during the development of the draft
report. While we determined that these discrepancies did not adversely impact the audit reports,
these examples show how other potential discrepancies could go undetected. Audit reports
containing significant discrepancies have an adverse effect on the integrity of the report.

FDIC/OIG officials informed us that the issuance of updated policies and procedures will re-
iterate the expectation that audit staff should index and reference executive summaries.

        Recommendation 5. The Federal Deposit Insurance Corporation Office of
        Inspector General’s Deputy Inspector General for Audits and Evaluations should
        require auditors to index and reference all changes to draft reports prior to
        issuance and issue a directive (or policy reminder) that all factual changes to
        reports made after they have been referenced should be re-referenced to ensure
        accuracy and enhance the integrity of the audit report.

        Management Response: FDIC/OIG concurred with the intent of the
        recommendation, stating that it planned to update procedures “to clarify
        expectations related to indexing the draft report, including the need to index and

1
 FDIC/OIG’s memorandum entitled, Annual Quality Monitoring Analysis and Summary of the OIG Audit
Organization for 2012, dated Jan. 31, 2013.

                                          UNCLASSIFIED

                                                                                                   6
                                       UNCLASSIFIED

       reference the executive summary” and to provide related training by February 28,
       2014. However, FDIC/OIG further stated that it did not agree that “all changes
       need to be indexed and referenced” and that it would instead “expand and more
       clearly define the types of changes . . . made to the draft report (and executive
       summary) that are required to be indexed and referenced before the report is
       issued in final.”

       OIG Reply: OIG accepted the FDIC/OIG proposed action as meeting the intent
       of the recommendation.

Independent Public Accountant Monitoring

Finding 5. Review of Independent Public Accountant Work Papers

In addition to reviewing its system of quality control to ensure adherence with GAS, we applied
certain limited procedures in accordance with guidance established by CIGIE that related to
FDIC/OIG’s monitoring of audit work performed by contracted IPA firms.

The PPM requires FDIC/OIG technical monitors ensure contractor adherence to GAS and
inspect and review deliverables to ensure that they meet quality and professional standards. In
one of two FDIC/OIG technical monitoring files for audit work performed by contracted IPA
firms, we noted no evidence of FDIC/OIG technical monitor review for GAS compliance in the
IPA work papers that were retained in TeamMate. Also, an inspection of IPA work papers in the
TeamMate file showed no FDIC/OIG review notes or comments indicating review for
compliance with FDIC OIG PPM requirements. For example, we identified only two summary
work papers in the work paper file noting FDIC/OIG technical monitor review and acceptance of
the IPA work papers.

The FDIC/OIG is responsible for all reports issued, to include IPA reports, and failure to
document compliance with GAS and inspect IPA work papers could let quality control and
noncompliance issues go undetected.

FDIC/OIG officials informed us that TeamMate template was essentially their checklist to ensure
that deliverables, which tie to GAS requirements, are properly inspected and reviewed.
However, they agreed that they can enhance how they document their review of IPA firms and
are taking steps to ensure those teams who are currently working with IPAs develop and
document and oversight strategy, including how they plan to review IPA’s work papers.

       Recommendation 6. The Federal Deposit Insurance Corporation Office of
       Inspector General’s Deputy Inspector General for Audits and Evaluations should
       develop comprehensive review and verification procedures, such as Government
       Auditing Standards (GAS) checklists or incorporating GAS requirements into its
       standard audit program, for its Independent Public Accountant audits to ensure
       compliance with professional standards and Policies and Procedures Manual
       requirements.

                                       UNCLASSIFIED

                                                                                                  7
                                         UNCLASSIFIED




Management Response: FDIC/OIG concurred with the intent of the
recommendation, stating that it would enhance existing procedures to address
"how a team should approach and document the review of the IPA's audit
documentation" to "better document the extent of oversight" currently provided"
and that it would provide related training by February 28, 2014. However,
FDIC/OIG further stated that it believes its "current process is adequately
designed to allow" monitoring of IPAs compliance with contracts and GAS and
PPM requirements.

OIG Reply: OIG accepted the FDIC/OIG proposed action as meeting the intent
of the recommendation.

                                            Sincerely,

                                              /Signed/
                                            Harold W. Geisel
                                            Acting Inspector General




                                         UNCLASSIFIED
                                                                                  8
